A

NORTON ROSE FULBRIGHT

March 2, 2020
By Hand Delivery

Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543

Re :

Norton Rose Fulbright US LLP
799 9th Street NW
Suite 1000
Washington, DC 20001 -4501
United States
Direct line +1 202 662 0466
jonathan.franklin@nortonrosefulbright.com
Tel +1 202 662 0200
Fax +1 202 662 4643
nortonrosefulbright.com

Takeda Pharmaceutical Company Limited, et al. v. Painters & Allied Trades District
Council 82 Health Care Fund, et al., No. 19-1069

Dear Mr. Harris:
Petitioners in the above-captioned case hereby give blanket consent to the submission of
timely filed briefs amici curiae in support of petitioners, respondents, or neither party.

ounsel of Record for Petitioners
cc: Counsel for Respondents

Norton Rose Fulbright US LLP is a limited liability partnership registered under the laws of Texas.
Norton Rose Fulbright US LLP. Norton Rose Fulbright LLP, Norton Rose Fulbright Australia, Norton Rose Fulbright Canada LLP and Norton Rose
Fulbright South Africa Inc are separate legal entities and all of them are members of Norton Rose Fulbright Verein, a Swiss vereln. Norton Rose Fulbright
Verein helps coordinate the activities of the members but does not itself provide legal services to clients. Details of each entity. with certain regulatory
information. are available at nortonrosefulbright.com.

